         Office of Inspector General




September 28, 2005

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Audit Report – Commercial Air Network Operations
         (Report Number NL-AR-05-015)

This report presents results from our self-initiated audit of Air Network Operations
(Project Number 04YG023NL002) and focuses on the Commercial Air 2003 (CAIR-03)
Contract. We evaluated whether air network operations were effective and identified
opportunities to save money.

On June 28, 2003, the Postal Service signed the CAIR-03 Contract with 18 commercial
airlines. The contract replaced the Air Systems Contract in place at the time, and was
intended to improve service by measuring performance, reducing costs, and improving
operations. It anticipated that the airlines would have 92 percent on-time performance
for First-Class Mail.

However, according to the airlines’ data for the period October 2003 through May 2005,
their overall on-time performance for First-Class Mail averaged between 39 and
67 percent. In addition, according to Postal Service data, during the period June 28,
2003, through May 30, 2005, the Postal Service may have:

   •   Missed an opportunity to assess as much as $700,000 in damages attributable to
       airline contract irregularities.

   •   Missed an opportunity to assess as much as $2.2 million in damages attributable
       to transportation failures caused by the airlines.

   •   Inadvertently incurred about $4.4 million in costs from Postal Service caused
       transportation failures.

Potential damage assessments were missed and additional costs were incurred
because management controls needed improvement.

By improving controls, the Postal Service can recover as much as $3.2 million in
damages over the next 2 years and save as much as $3.5 million in operating
efficiencies.
Management has taken some action to address control issues; however, we remain
concerned about the control environment. We recommended management
aggressively pursue damage penalties where possible; ensure that systems are
operating as intended; and strengthen management controls as required.

Management agreed with all our recommendations. They stated they would pursue
damages where it made financial sense and would ensure all systems were functioning
as intended. They concurred that delays in system implementation and training had
prevented the Postal Service from collecting monies that were due and stated that, by
implementing our audit recommendations, the Postal Service would be able to properly
administer that process. Management’s comments and our evaluation of these
comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1, 2, and
3 significant, and therefore requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during our work. If
you have any questions, or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Steven R. Phelps
Commercial Air Network Operations                                                      NL-AR-05-015



                                         INTRODUCTION
 Background                      The Postal Service contracts with commercial airlines to
                                 transport mail. When mail is to be moved by air, Postal
                                 Service air mail centers receive it from mail processing
                                 facilities, and distribute or “tender” it to the various airlines.




 United States Postal Service
        Air Mail Center
             at the
      Hartsfield-Jackson
 Atlanta International Airport
       December 2004.




                                 On June 28, 2003, the Postal Service signed the
                                 Commercial Air 2003 (CAIR-03) Contract with
                                 18 commercial airlines. The new contract replaced the




  Delta Airlines loading mail
             at the
      Hartsfield-Jackson
 Atlanta International Airport
       December 2004.




                                 Air Systems (ASYS) Contract in place at the time, and was
                                 intended to improve service by measuring performance,
                                 reducing costs, and improving operations. It anticipated that
                                 the airlines would have 92 percent on-time performance for
                                 First-Class Mail.


                                                    1
Commercial Air Network Operations                                                  NL-AR-05-015




                              The new contract required airlines to accept mail at the
                              point of origin, load it on airplanes, transfer it at any
                              intermediate points, and return it to Postal Service control at
                              the point of final air destination. The contract also required
                              airlines to electronically scan mail in order to document
                              acceptance, loading, transfer, and return.

 Irregularities               The contract defined irregularities as instances when the
                              airlines fail to meet their contractual obligations.
                              Irregularities include the airlines’ failure to do the following:

                                    •   Load and transport mail.

                                    •   Protect mail in airline possession.

                                    •   Notify the Postal Service of any flight delays,
                                        cancellations, or other changes in expected service.

                              When such contract violations or irregularities occur, the
                              Postal Service is entitled to reimbursement for damages in
                              accordance with the contract penalty schedule.

 Repossession                 Sometimes mail tendered to airlines cannot be transported
                              to the final air destination on time. When mail cannot be
                              transported on time, the Postal Service may be required to
                              repossess it and reassign it to alternate transportation.
                              Whenever the Postal Service must repossess and reassign
                              mail, delivery to Postal Service customers can be delayed,
                              and the Postal Service incurs unnecessary costs.
                              Transportation failure can be:

                                    •   The fault of the airline.

                                    •   The result of unanticipated events such as severe
                                        weather.

                                    •   The fault of the Postal Service for operational
                                        inefficiencies such as tendering mail late or assigning
                                        too much mail to an airline.

                              If transportation failure is the fault of the airline, the Postal
                              Service is again entitled to receive monetary reimbursement
                              for damages to recover the costs of rehandling mail.



                                                   2
Commercial Air Network Operations                                                 NL-AR-05-015



 Electronic Scanning             Electronic scanning systems are important tools that both
 Systems                         the Postal Service and airlines use to properly administer
                                 the CAIR-03 Contract. The scanning systems are used to




     The CAIR-03 Contract
  requires the Postal Service
  to put dispatch and routing
     (D&R) tags on all mail
        handling units.

 The photograph shows D&R
  tags being applied to mail
 trays at the Atlanta Air Mail
    Center in August 2004.




                                 track mail and document circumstances associated with
                                 potential transportation failures. The contract requires the
                                 Postal Service to put D&R tags on all mail trays, sacks, and




 Airline personnel accepting
     mail for transport by
  scanning D&R tags at the
  Atlanta Air Mail Center in
         August 2004.




                                 packages. Collectively, individual packages or containers,
                                 like mail trays or sacks, are referred to as mail handling
                                 units. The Postal Service places D&R tags on all mail



                                                 3
Commercial Air Network Operations                                                    NL-AR-05-015



                                 handling units so airline personnel can electronically scan
                                 mail at prescribed points while it is in the airlines’
                                 possession. The electronic scanning system relies on
                                 handheld scanners, specifically designed software and
                                 hardware, other electronic equipment, detailed published
                                 procedures, and properly trained personnel.

                                 By effectively employing electronic scanning systems, the
                                 Postal Service can:

                                    •   Properly account for all mail in airline possession.

                                    •   Document responsibility for irregularities or
                                        repossessions, assess appropriate damages, and
                                        hold airlines accountable.

                                    •   Pay airlines only for mail they actually transport.

                                    •   Assess and improve both airline and Postal Service
                                        performance.




  The photographs show an
 electronic scanner (left) and
    printer (right) used by
 Postal Service personnel to
          scan mail.




 Objectives, Scope,              This report presents results from our self-initiated audit of air
 and Methodology                 network operations. The objectives of our audit were to
                                 evaluate whether air network operations were effective, and
                                 identify opportunities to save money.




                                                   4
Commercial Air Network Operations                                             NL-AR-05-015



                              During our audit work, we interviewed officials at
                              headquarters and in the Southeast Area. We visited the
                              Atlanta Air Mail Center; interviewed supervisors, employees,
                              and airline personnel; and observed and photographed
                              operations. We examined relevant Postal Service policies
                              and procedures, the expired Air Systems Contract, the
                              current CAIR-03 Contract, and other appropriate documents
                              or records. We consulted financial analysts, computer
                              analysts, and other subject matter experts. We analyzed
                              nationwide Postal Service data, airline data, mail volume,
                              performance standards, and actual airline performance.

                              To evaluate monetary impact, we used the damage
                              schedule in the CAIR-03 Contract. We also discussed our
                              observations and conclusions with appropriate management
                              officials and included their comments where appropriate.

                              This audit was conducted from May 2004 through
                              September 2005 in accordance with generally accepted
                              government auditing standards, and included such tests of
                              internal controls as were considered necessary under the
                              circumstances.

                              During our audit, we examined computer data in
                              management’s “Surface – Air Support System” and other
                              electronic data management systems. We did not
                              comprehensively audit or validate the data; however,
                              several control weaknesses delayed and constrained our
                              work. For example, electronic records and data were
                              incomplete because at the time of our work, necessary
                              hardware, software, or other electronic equipment was not
                              fully deployed; Postal Service employees were not properly
                              recording repossessed mail; and the policies required to
                              evaluate Postal Service or airline performance were
                              incomplete or needed clarification.

                              Although data and other internal control limitations
                              constrained our work, we partially compensated by applying
                              alternate audit procedures, including examination of source
                              documents, observation, approximation, physical inspection,
                              and discussion with responsible officials. For example,
                              because accurate data was not readily available to help us
                              evaluate the monetary impact of repossessions caused by
                              the Postal Service, we used the damage schedule in the
                              CAIR-03 to approximate monetary impact.



                                              5
Commercial Air Network Operations                                                 NL-AR-05-015




 Prior Audit Coverage            Our audit report, Mail Backlogs at the Hartsfield-Jackson
                                 Atlanta International Airport (Report Number NL-AR-05-002,
                                 dated March 8, 2005), described significant mail delays
                                 during the 2004 - 2005 Christmas holiday season. On-site
                                 Postal Service employees explained that the delayed mail
                                 had been tendered to Delta Airlines and was in Delta’s
                                 possession; the Postal Service was repossessing the mail
                                 and assigning it to alternate transportation; scanning




     Hartsfield-Jackson
 Atlanta International Airport
       December 2004.

  Mail staged on the airport
       tarmac awaiting
   transportation by Delta
           Airlines.




                                 equipment was not adequate for the amount of mail they
                                 were required to repossess; and they were probably
                                 rehandling the same mail several times. We recommended
                                 that the Postal Service inquire into the conditions involving
                                 Delta Airlines and take appropriate corrective action.




                                                  6
Commercial Air Network Operations                                                 NL-AR-05-015



                                            RESULTS
 Commercial Air               Commercial airlines did not always meet their contractual
 Operations                   obligations and did not meet the 92 percent on-time
                              performance anticipated for First-Class Mail. In addition,
                              the Postal Service incurred unnecessary costs because
                              Postal Service employees tendered mail to airlines that
                              should not have been tendered, and as a result, mail had to
                              be repossessed.

                              According to airline data, during the period October 2003
                              through May 2005, overall airline on-time performance for
                              First-Class Mail averaged between 39 and 67 percent.

                              According to Postal Service data, during the period
                              June 28, 2003, through May 31, 2005, the Postal Service
                              may have:

                                    •   Missed an opportunity to assess as much as
                                        $700,000 in damages attributable to airline
                                        irregularities.

                                    •   Missed an opportunity to assess as much as
                                        $2.2 million in damages attributable to transportation
                                        failures caused by the airlines.

                                    •   Inadvertently incurred about $4.4 million in costs from
                                        transportation failures caused by the Postal Service.

                              The Postal Service missed opportunities to improve
                              efficiency, recover penalties, and reduce inadvertent cost
                              because officials needed to improve the control
                              environment. By correcting the control environment, the
                              Postal Service can recover as much as $3.2 million in
                              damages over the next 2 years and save as much as
                              $3.5 million in operating efficiencies.

 Airline Contract             Nationwide Postal Service data for the period June 28,
 Irregularities               2003, through May 31, 2005, identified more than
                              157,500 potential contract irregularities resulting from airline
                              contract violations such as failure to load, transport, or
                              protect mail. However, the Postal Service did not properly
                              document these incidents. As a result, the Postal Service
                              could not verify or refute the facts surrounding the
                              irregularities, including mitigating circumstances; could not


                                                  7
Commercial Air Network Operations                                                           NL-AR-05-015



                              always establish monetary damages; and could not hold the
                              airlines accountable. Consequently, the Postal Service did
                              not recover penalties associated with any of the
                              157,500 potential contract irregularities. Because data or
                              records were unreliable or unavailable, we could not
                              precisely establish the monetary impact of airline contract
                              violations. However, we conservatively estimated that
                              unrecoverable damages were as much as $700,000.

 Mail Repossession and        During the analysis period June 28, 2003, through May 31,
 Reassignment                 2005, the Postal Service repossessed more than 1.2 million
                              air mail handling units nationwide.

                                    •    More than 465,000 units, accounting for about
                                         39 percent of the total units, were repossessed
                                         because of airline failure.

                                    •    More than 690,000 units were repossessed because
                                         of Postal Service caused problems such as assigning
                                         too much mail to an airline or assigning the mail too
                                         late for it to be transported on time. Problems
                                         caused by the Postal Service accounted for about
                                         57 percent of the total.

                              The Postal Service recovered minimal damages for the
                              repossessions identified. Because Postal Service data or
                              records were unreliable or unavailable, we could not
                              precisely establish the monetary impact of repossessing
                              mail and reassigning it to other transportation. However,
                              using the contract penalty schedule as an approximate
                              surrogate for cost, we estimated monetary impact as
                              follows.
                                        Monetary Impact of Repossessing and Reassigning Mail
                                    At Fault             Units*    Percentage    Potential Monetary Impact

                             Airline                  465,768           39              $2.2 million

                             Postal Service           690,921           57              $4.4 million

                             No-fault                    56,557          4           Not applicable

                             Total                  1,213,246          100              $6.6 million

                                         *Source: Surface - Air Support System




                                                     8
Commercial Air Network Operations                                                 NL-AR-05-015




 System of Control            The Postal Service lost potential damage recoveries and
                              incurred unnecessary costs because when the CAIR-03
                              Contract was signed in June 2003, the system of
                              management control supporting the contract was not fully in
                              place. For example:

                                    •   Handheld devices for recording irregularities and
                                        repossessions were not deployed until March 2004.

                                    •   Software updates to accommodate the new contract
                                        were not completed until June 2004.

                                    •   Software did not properly interface with the systems
                                        needed to properly record or adjudicate incidents.

                                    •   Policies and procedures associated with the new
                                        contract were not updated and contained provisions
                                        associated with the previous Air Systems Contract
                                        that no longer applied. Consequently, employees
                                        were not properly trained.

                                    •   Terms for categorizing repossessions were vague or
                                        unclear. For example, Postal Service employees
                                        could not define or explain the categories “other” or
                                        “job action,” and as a result, their use of these
                                        undefined categories was inconsistent.

                              Because controls were not fully in place, did not apply, or
                              were inconsistently applied, circumstances associated with
                              contract irregularities and mail repossessions were not
                              properly documented, and the Postal Service could not
                              pursue recoveries, take needed corrective action, hold
                              airlines accountable, or improve performance.

 Management Action            After the CAIR-03 Contract was signed, Postal Service
                              officials recognized that controls needed improvement and
                              explained that they took action to improve controls and
                              recover damages where possible. However, officials
                              acknowledged that because weak controls existed,
                              recoveries were minimal. Although management has
                              responded to the control weaknesses, we remain concerned
                              about the control environment. For example:




                                                  9
Commercial Air Network Operations                                                  NL-AR-05-015




                                    •   As of the issue date of this report, the policies and
                                        procedures that Postal Service officials need to
                                        properly administer the CAIR-03 Contract still require
                                        development, update, or clarification.

                                    •   System deficiencies continue to prevent assessment
                                        of damages for irregularities.

                                    •   Our subsequent on-site inspections of the Atlanta Air
                                        Mail Center suggest that employees are still not
                                        properly using the electronic scanning equipment
                                        issued to them, or properly recording irregularities or
                                        repossessions.

                                    •   Our nationwide analysis of data suggests continuing
                                        data integrity problems, and that because of
                                        inadequate documentation, damages and needed
                                        corrective actions are not being adequately pursued.

                              The Inspector General Act of 1978, as amended, requires
                              that we specify the dollar value of unnecessary costs or
                              potential savings we identify. Because of control
                              weaknesses, including data integrity and documentation
                              problems, we could not precisely quantify the dollar value of
                              unnecessary costs or potential savings. However, using as
                              a baseline the rate of missed opportunity during the analysis
                              period June 28, 2003, through May 31, 2005, and assuming
                              a constant rate if control weaknesses are not corrected, the
                              Postal Service can, over the next 2 years, correct
                              weaknesses, recover as much as $3.2 million in damages,
                              and save as much as $3.5 million by correcting problems
                              caused by the Postal Service.

 Recommendation               We recommend the vice president, Network Operations
                              Management:

                                    1. Aggressively pursue damages where possible,
                                       consistent with an assessment of the costs of
                                       pursuing such recoveries.

 Management’s                 Management agreed with our recommendation. They
 Comments                     stated that where it made financial sense, the Postal
                              Service would pursue collection of damages from



                                                 10
Commercial Air Network Operations                                                NL-AR-05-015




                              commercial air carriers. Management’s comments, in their
                              entirety, are included in the appendix of this report.

 Recommendation                     2. Ensure that all systems for implementing contract
                                       damage provisions are functioning as intended.

 Management’s                 Management agreed with our recommendation. They
 Comments                     stated that Network Operations Management would ensure
                              all systems were functioning as intended.

 Recommendation               We recommend the vice president, Network Operations
                              Management:

                                    3. Strengthen the control environment by issuing or
                                       updating required policies and procedures; training
                                       employees; and taking other control steps as
                                       required.

 Management’s                 Management agreed with our recommendation. They
 Comments                     stated that:

                                    •   Relevant policies and procedures were updated on
                                        June 4, 2004, and October 8, 2004.

                                    •   Final policy for repossessions/reassignments was
                                        issued as of October 21, 2004.

                                    •   Terminology would be clearly defined in October
                                        2005 to eliminate ambiguity in repossession reason
                                        codes.

                                    •   New surface air support system mobile devices
                                        would be deployed and activated commencing in
                                        October 2005 and would enhance performance
                                        controls.

                                    •   Refresher training would commence in October 2005
                                        and would continue throughout the deployment and
                                        activation of the new surface air support system
                                        mobile devices.

                              Although management’s response was unclear as to why,
                              management also stated that while they agreed with our



                                                 11
Commercial Air Network Operations                                            NL-AR-05-015



                              recommendation, they did not agree with our finding. Their
                              disagreement notwithstanding, management concurred that
                              delays in system implementation and training had prevented
                              the Postal Service from collecting monies that were due,
                              and that by implementing our audit recommendations, the
                              Postal Service would be able to properly administer that
                              process.

 Evaluation of                Management’s comments are responsive to our
 Management’s                 recommendations and we consider management’s actions,
 Comments                     taken or planned, sufficient to address those
                              recommendations. We appreciated the open
                              communication management provided throughout our audit,
                              and during out standard process for closing significant
                              recommendations, we will seek to continue that cooperation
                              and resolve any disagreement with our findings.




                                             12
Commercial Air Network Operations                    NL-AR-05-015



                   APPENDIX. MANAGEMENT’S COMMENTS




                                    13
Commercial Air Network Operations        NL-AR-05-015




                                    14
